<html>
<title> - HEARING ON THE NOMINATIONS OF WILLIAM CHARLES MCINTOSH AND PETER C. WRIGHT TO BE ASSISTANT ADMINISTRATORS OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 115-463]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-463

  HEARING ON THE NOMINATIONS OF WILLIAM CHARLES MCINTOSH AND PETER C. 
 WRIGHT TO BE ASSISTANT ADMINISTRATORS OF THE ENVIRONMENTAL PROTECTION 
                                 AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-698 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>              
               
              
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 20, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5

                               WITNESSES

Daines, Hon. Steve, U.S. Senator from the State of Montana.......     2
Rice, Hon. Tom, U.S. Representative from the State of South 
  Carolina.......................................................     4
McIntosh, William Charles, nominee to be Assistant Administrator 
  for the Office of International and Tribal Affairs.............     9
    Prepared statement...........................................    11
    Response to an additional question from Senator Barrasso.....    14
    Responses to additional questions from:
        Senator Carper...........................................    14
        Senator Merkley..........................................    22
        Senator Sullivan.........................................    24
        Senator Whitehouse.......................................    25
Wright, Peter C., nominee to be Assistant Administrator for the 
  Office of Land and Emergency Management........................    31
    Prepared statement...........................................    33
    Responses to additional questions from:
        Senator Barrasso.........................................    36
        Senator Carper...........................................    37
        Senator Booker...........................................    42
        Senator Duckworth........................................    44
        Senator Merkley..........................................    46
    Response to an additional question from Senator Sullivan.....    49
    Responses to additional questions from Senator Whitehouse....    49

                          ADDITIONAL MATERIAL

Letter to Senators Barrasso and Carper from:
    G. Tracy Mehan, III, RE: William McIntosh, nominee, Assistant 
      Administrator for the Office of International and Tribal 
      Affairs, U.S. Environmental Protection Agency, June 18, 
      2018.......................................................   234
    Shannon S. Broome, Hunton Andrews Kurth LLP, June 18, 2018...   236
    Andrew J. Such, Michigan Manufacturers Association, June 18, 
      2018.......................................................   238
    Tim O'Brien..................................................   239
    John E. Milner, Esquire, American Bar Association, February 
      28, 2018...................................................   240
    Laurence S. Kirsch, Goodwin, Re: Nomination of Peter C. 
      Wright as Assistant Administrator for the Office of Land 
      and Emergency Management, U.S. Environmental Protection 
      Agency, February 28, 2018..................................   242

 
  HEARING ON THE NOMINATIONS OF WILLIAM CHARLES MCINTOSH AND PETER C. 
 WRIGHT TO BE ASSISTANT ADMINISTRATORS OF THE ENVIRONMENTAL PROTECTION 
                                 AGENCY

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Wicker, 
Fischer, Rounds, Ernst, Sullivan, Cardin, Whitehouse, 
Gillibrand, Booker, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will consider two nominees to serve as Assistant 
Administrators of the Environmental Protection Agency, William 
Charles ``Chad'' McIntosh, former Manager of Global 
Environmental Policy at the Ford Motor Company, and Peter C. 
Wright, Managing Counsel at Dow Chemical Company.
    Both nominees before us today are well qualified and will 
bring a wealth of experience and expertise to critically 
important roles in protecting America's public health and 
safety.
    President Trump has nominated Chad McIntosh to lead the 
EPA's Office of International and Tribal Affairs. The Office of 
International and Tribal Affairs coordinates EPA's interaction 
with tribal and foreign governments. The office works across 
EPA's programs and regions to develop and implement policies 
and programs to protect the public health and the environment.
    Tracy Mehan, former Assistant Administrator of EPA's Office 
of Water and former Director of Michigan's Office of the Great 
Lakes, said this of Mr. McIntosh: ``As someone who has had the 
pleasure to work with Chad McIntosh on Great Lakes and other 
environmental issues in Michigan State government, I can 
testify to his solid technical, policy, and legal expertise as 
both an engineer and an attorney. He was a conscientious public 
servant and an outstanding conservationist. He will be an 
excellent addition to the team at EPA. He is a great colleague 
and administrator.''
    President Trump has also nominated Peter Wright. If 
confirmed, he will lead EPA's Office of Land and Emergency 
Management. The Office of Land and Emergency Management 
provides policy, guidance, and direction for EPA's emergency 
response and waste programs. This office oversees the Superfund 
program, which is a priority for this Administration, as well 
as this Committee.
    John Milner, the Chair of the American Bar Association's 
Section on Environment, Energy, and Resources, said this of Mr. 
Wright: ``Peter's career, his selfless commitment to the 
American Bar Association's Section of Environment, Energy, and 
Resources, and the members it serves, and his well recognized 
personal integrity exemplify the highest standards of the legal 
profession. We enthusiastically and without reservation support 
the consideration of Peter as Assistant Administrator of OLEM 
and believe Peter will serve the office with distinction and 
honor.''
    There are approximately 1,300 listed Superfund sites across 
the country that are a threat to the environment, to public 
health, and the economy. These sites must be cleaned up in a 
thorough and efficient manner. Likewise, there are 
approximately 450,000 Brownfields sites that also need to be 
addressed. The EPA Brownfields Program is a great example of 
Washington working with local communities to address pollution 
and to find new uses for long abandoned sites.
    Earlier this year this Committee was able to pass and get 
signed into law bipartisan legislation reauthorizing EPA's 
important Brownfields Program. This law will assist States and 
local communities in their efforts to clean up and reuse these 
properties.
    The EPA needs a leader like Mr. Wright to ensure that the 
EPA's Superfund and Brownfields Programs properly address 
America's contaminated sites.
    I look forward to hearing from both Mr. McIntosh and Mr. 
Wright today as the Committee considers their nominations.
    I would like to now turn to the Ranking Member for his 
statement, Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Good morning, one and all. Welcome to our friends.
    Have you already been introduced?
    Senator Barrasso. No. We have the Senator and the 
Congressman to do the initial introductions.
    Senator Carper. OK. Should they go first so they can leave?
    Senator Barrasso. That would be fine. I don't want to 
take----
    Senator Carper. You all go ahead, please.
    Senator Barrasso. Well now, Senator Daines, would you like 
to introduce Mr. Wright? Welcome to the Committee.

                STATEMENT OF HON. STEVE DAINES, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Daines. I would be happy to. Thanks, Mr. Chairman.
    I want to thank Chairman Barrasso and Ranking Member for 
allowing us to be here today.
    I would also like to welcome to the Committee Mr. Peter C. 
Wright. Mr. Wright and I met in my office just last week, and 
if confirmed, I trust he will excel as EPA's Assistant 
Administrator for the Office of Land and Emergency Management.
    Mr. Wright has an extensive background in environmental law 
and regulatory counseling. In fact, during his nearly 20 years 
at the Dow Chemical Company, he has led legal strategy on 
hundreds of Superfund, State-led, and other remediation sites.
    Mr. Wright has also been a leader of the American Bar 
Association's Section of Environment, Energy, and Resources. He 
earned his J.D. summa cum laude from Indiana University and his 
A.B. summa cum laude from Wabash College.
    If confirmed, Mr. Wright will carry out Administrator 
Pruitt's mission. For one, he will continue the charge on 
improving the Superfund Program.
    Let me tell you something, last Friday I was in Anaconda, 
Montana. It is one of the Superfund sites. Under Administrator 
Pruitt and the EPA, we are finally working to bring closure--an 
end--to some of these Superfund sites that have just dogged us 
for years in Montana. In fact, this was declared a Superfund 
site in 1983. I was a junior in college at Montana State 
University when that occurred, and there is no signed consent 
decree yet. The studies are done. It is time to stop studying 
it and move to closure.
    I will tell you something, Doug Benevento, Region 8, EPA 
has been in Anaconda. I think he is almost a permanent resident 
there. He has the community support, working with the local 
officials, the State officials, and we are actually starting to 
see property values start to increase for the first time in 
Anaconda, Montana, in a long time.
    He understands the need to improve the way the EPA oversees 
environmental cleanup and hazardous waste sites and the need to 
see those cleanups happen more expeditiously, while protecting 
human health and the environment. I saw that firsthand last 
Friday.
    This program is personal to me, coming from Montana, where 
we are home to two of the most expensive and expansive 
Superfund sites in the Nation.
    I would also like to thank Chairman Barrasso and Ranking 
Member Carper for having me here and for the opportunity to 
introduce this highly qualified nominee. I hope to see him 
clear this Committee so that the full Senate can consider his 
nomination swiftly.
    Thank you.
    [The prepared statement of Senator Daines follows:]

                    Statement of Hon. Steve Daines, 
                 U.S. Senator from the State of Montana

    Mr. Wright has an extensive background in Environmental Law 
and regulatory counseling. In fact, during his nearly 20 years 
at Dow Chemical Company he has led legal strategy on hundreds 
of Superfund, State-led, and other remediation sites.
    Mr. Wright has also been a leader of the American Bar 
Association's section of environment, energy, and resources. He 
earned his J.D. summa cum laude from Indiana University and his 
A.B. summa cum laude from Wabash College.
    If confirmed Administrator Wright will carry out Secretary 
Pruitt's mission. For one, he'll continue the charge on proving 
the Superfund program.
    Let me tell you something, last Friday, I was in Anaconda, 
Montana; it's one of the Superfund sites. Under Administrator 
Pruitt and the EPA we're finally working to bring closure--an 
end--to some of these Superfund sites that have just dogged us 
for years in Montana. In fact, this was declared a Superfund 
site in 1983; I was a junior in college at Montana State 
University when that occurred, and there's no signed consent 
decree yet.
    So the studies are done; it's time to stop studying it and 
move to closure, and I'll tell you something--Doug Benevento, 
Region 8 Administrator has been in Anaconda so long I think 
he's almost a permanent resident there. He's got the community 
support, working with the local officials, the State officials, 
and we're actually seeing property value begin to increase for 
the first time in Anaconda in a long time. He understands the 
need to improve the way the EPA oversees environmental cleanup 
at hazardous waste sites and the need to see those cleanups 
happen more expeditiously while protecting human health and the 
environment. I saw that firsthand last Friday. This program is 
personal to me coming from Montana where we're home to two of 
the most expansive Superfund sites in the Nation.
    I'd also like to thank Chairman Barrasso and Ranking Member 
Carper for having me here and for the opportunity to introduce 
this highly qualified nominee. I hope to see him clear this 
Committee so that the full Senate can consider his nomination 
swiftly.

    Senator Barrasso. Thank you very much, Senator Daines. We 
appreciate you taking time to be here. We know you have a very 
busy schedule this morning. If you need to excuse yourself, 
please do.
    We would also like to welcome to the Committee Congressman 
Tom Rice from South Carolina's 7th Congressional District, who 
is here to introduce Mr. McIntosh.
    Congressman Rice, welcome to the Committee. Thank you for 
being here today.

        STATEMENT OF HON. TOM RICE, U.S. REPRESENTATIVE 
                FROM THE STATE OF SOUTH CAROLINA

    Representative Rice. Thank you, Mr. Chairman. It is my 
pleasure to introduce Chad McIntosh, who recently moved to 
Murrells Inlet, South Carolina, in my district, along with 
about 10 percent of the population of the Northeast and the 
Midwest who continue to pour in to our beautiful, beautiful 
district.
    I imagine he is enjoying the weather quite a bit more now. 
I only met him last week; was very impressed with him and was 
convinced to do this introduction when he shared with me that 
he is--like me--an offshore fisherman and would share some of 
his GPS coordinates to his favorite fishing holes.
    Mr. McIntosh is a strongly qualified nominee to lead the 
EPA's Office of International and Tribal Affairs as an 
Assistant Administrator. Mr. McIntosh's extensive engineering 
and legal experience strongly position him to take on this role 
at the EPA. He spent 20 years managing global and environmental 
policy at Ford Motor Company, where he managed environmental 
quality offices at multiple international locations, and 
provided environmental regulatory compliance, permit 
development, and enforcement negotiation for all of the 
company's manufacturing facilities.
    Before his time at Ford Motor Company, he served as Deputy 
Director for the Michigan Department of Environmental Quality, 
where he worked closely with tribal and State leaders, oversaw 
regulatory reform and criminal investigations, and directed the 
development of administrative rules packages for the State.
    He has demonstrated his ability to develop and implement 
sound regulatory policy and manage large organizations. His 
leadership skills and wealth of experience will make him a 
strong asset for the Environmental Protection Agency.
    I yield.
    Senator Barrasso. Well, thank you very much for being with 
us, Representative Rice. I know you have a busy schedule as 
well. You are welcome to stay for the entirety of the hearing, 
if you would like, but I know you have additional commitments, 
so thank you for joining us today.
    Senator Carper. Representative Rice, before you leave, 
could I just ask you a couple questions?
    [Laughter.]
    Senator Barrasso. I would be careful.
    Representative Rice. Yes, sir.
    Senator Carper. My wife is from western North Carolina. Her 
father is from South Carolina. He is now deceased. Star Stacy 
was his name. And if I closed my eyes when you were talking, I 
would swear he was at this table. It was great to hear that 
South Carolina accent.
    Representative Rice. If your wife is from North Carolina, 
she has probably been to Myrtle Beach once or twice.
    Senator Carper. We will talk about that later.
    [Laughter.]
    Senator Carper. Thanks for joining us.
    Senator Barrasso. Senator Carper, would you like to 
continue with your opening statement? Then I will introduce the 
nominees.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    To our nominees, welcome, one and all. Thank you for your 
willingness to serve. I presume there are probably some members 
of your families that are here.
    If you happen to be a family member of one our nominees 
today, would you just raise your hand? Just raise your hand. 
OK. All right.
    If you are, but you don't want to admit it, would you raise 
your hand?
    [Laughter.]
    Senator Carper. OK.
    Well, Mr. Chairman, thanks for bringing us together. We are 
here to consider the nominations of Chad, also known as William 
Charles McIntosh, who has been selected to lead the EPA Office 
of International and Tribal Affairs, and Peter Wright, 
President Trump's pick to lead EPA's Office of Land and 
Emergency Management.
    As my colleagues know, sometimes to our witnesses, our 
nominees, I describe myself as a recovering Governor. I am 
still recovering, and some others are also recovering Governors 
here. But for the most part, I believe that executives--
including Governors, mayors, and even Presidents--generally 
deserve a preference and deference, if you will, in picking 
their leadership teams, and I have agreed to confirm a number 
of Trump administration nominees by voice vote; not for long, 
drawn out debates and battles and so forth, but by voice votes.
    I did so because I expected that this Committee would hold 
nominees accountable for their actions and conduct necessary 
oversight, and doing so would follow the Committee's historical 
precedent that has always been adhered to, regardless of which 
political party was in the majority.
    This Committee has the responsibility to conduct oversight 
of the Federal agencies within our jurisdiction, and there are 
a bunch of them, as well as the leadership at those agencies. 
Any member of this Committee is entitled to request an 
oversight hearing if he or she believes it is warranted. 
Historically, we have held regular oversight hearings, 
especially when events clearly warrant such hearings.
    I can think of no time in all my years in government when 
events more clearly warranted an immediate series of hearings 
with an administrator, in this case the Administrator of the 
EPA. Today we are learning, almost every day, of a new 
scandal--some small, some not small--involving Administrator 
Pruitt, and I want to highlight just a couple of those, if I 
could.
    Mr. Pruitt has used EPA staff to help his wife find a job, 
search for real estate, try to buy a used mattress for the 
Trump Hotel----
    Senator Inhofe. Mr. Chairman, sorry to interrupt here. 
First of all, you should qualify this by saying he has been 
accused of the following. It is a big difference. I happen to 
know him well. I know what you just said is not correct.
    Senator Carper. Well, we all have a right to disagree, and 
we have heard this repeatedly from a lot of different sources. 
I appreciate very much my colleague's words.
    Mr. Pruitt has spent exorbitant amounts of taxpayer dollars 
on apparently illegal $43,000 phone booth and foreign trips 
organized by lobbyists. He has accepted tickets to sporting 
goods and below market rent on his condo from people who had 
business before the EPA. At the request of political 
supporters, he accelerated the Superfund cleanup process and 
directed that EPA research dollars be used for pet projects. 
For months now Mr. Pruitt's behavior has been concerning and 
clearly, to most of us, I think, unethical.
    However, in recent weeks new revelations show that some of 
the Administrator's actions may be illegal. We are a separate, 
co-equal branch of Government. We don't need permission to 
conduct oversight, and we are abdicating a fundamental 
responsibility of this body if we continue to fail to do so.
    As of today the majority of members of this Committee, 
including a majority of Republicans, I believe, have stated 
that they would like to see Mr. Pruitt testify and provide much 
needed answers about his misconduct.
    I know that our Chairman announced last night that the 
Administrator may be coming before our Committee sometime in 
August. I welcome that, but frankly, a hearing with the 
Administrator is already long overdue. Mr. Pruitt has come 
before our Committee only once during his entire tenure as 
Administrator of the EPA.
    I don't believe anyone would argue with me when I say that 
if Lisa Jackson or Gina McCarthy had done even one or two of 
the many things that Mr. Pruitt has done, appears to have done, 
the majority would have had them before us testifying every 
other week.
    Now, as far as I know, this Committee does not yet have any 
other hearings on the books. We shouldn't go, I think, 8 weeks 
before we invite Mr. Pruitt to appear to answer for, I believe, 
his misbehavior. I believe I speak for my colleagues, both 
Republican and Democrat, that we will clear our schedules and 
make time available as soon as possible.
    Having said that, let me just say to our witnesses here 
today, our nominees here today, we appreciate that you are 
here. We appreciate the opportunity to meet with you yesterday. 
We appreciate your willingness to serve. I was able to meet 
with both of you yesterday and look forward to learning more 
about your visions for the important positions to which you 
have been nominated.
    I do need to caution you both that your paths to 
confirmation will be troubled. Will be troubled. Could be 
troubled. Of the 60 oversight letters the Democratic members 
have sent to EPA, we received complete responses to only 23, 
less than half. The last time I tried to work with EPA to 
expedite the consideration of a nominee, Mr. Pruitt reneged on 
an agreement that he had previously made with me, so the 
Administrator's failure to work constructively with this 
Committee has put you in a tough spot.
    You are also looking to work at an agency run by an 
Administrator who seemingly has no qualms about asking his 
staff to do things that are inappropriate, maybe even illegal. 
The Administrator has put politics and his own personal gains 
ahead of the EPA's mission to protect public health and our 
environment. The Committee should know how you both plan to 
address this kind of work culture, should you be confirmed.
    Mr. Wright, you have been nominated to serve as Assistant 
Administrator for the Office of Land and Emergency Management, 
which sets Federal guidelines for both hazardous and non-
hazardous waste disposal, and oversees State and local waste 
disposal programs. The Office is also responsible for 
overseeing Superfund cleanups of the most contaminated sites on 
EPA's National Priorities List.
    The Office also acts as the Federal Government's 
environmental first responder in the events of oil spills, 
chemical accidents, natural and other environmental disasters. 
For example, the Office of Land and Emergency Management was on 
the scene during the Deepwater Horizon oil spill and in the 
aftermath of last year's hurricanes in Texas, Florida, Puerto 
Rico, and the U.S. Virgin Islands.
    Mr. Wright comes to us from Dow Chemical Company, now 
DowDuPont, where he has helped lead Dow's Superfund cleanup 
work. Mr. Wright has agreed to recuse himself from working on 
any Superfund site that DowDuPont may be responsible for 
contaminating for at least 2 years. For Dow sites that he has 
personally and substantially worked on, he has agreed to 
permanent recusal.
    I commend Mr. Wright for working on this recusal statement 
prior to confirmation--prior to confirmation. He has committed 
to take more meaningful steps to address potential conflicts of 
interest than any previous Trump administration nominee that I 
am aware of, and I commend you for that.
    I would ask Mr. Wright that he provide the Committee with 
further assurances that he will not seek a waiver from these 
recusals. I also want to know more about how he plans to 
implement the duties of his office. Science informs how EPA 
cleans up contaminated sites and manages solid waste. For 
example, many Superfund sites are vulnerable to flooding and 
sea level rise from extreme weather and from climate change. 
The level of risk opposed by toxic metals reaching into 
groundwater from coal ash disposal sites requires careful 
application of toxicological, geochemical, and hydrological 
data.
    Does Mr. Wright accept the scientific consensus that humans 
are responsible for climate change, and how will climate 
impacts inform his work? Will he continue to use best available 
science in monitoring protocols and disposal standards for coal 
ash?
    The Office of International and Tribal Affairs plays a 
critical role in international relations at EPA and 
interactions with the tribal communities across the Nation. 
Environmental issues do not adhere to international boundaries, 
and this office assists in international concerns that expand 
beyond our borders. In addition, this Office maintains the 
government to government relationships between EPA and tribal 
nations and the U.S.
    Mr. McIntosh, as has been noted, has worked at Ford Motor 
Company, an excellent company, for the State of Michigan. We 
look forward to hearing from Mr. McIntosh regarding his work in 
these areas and his plans to continue the mission of the office 
to which he has been nominated.
    Again, we welcome our witnesses and look forward to your 
testimony. Thank you so much.
    And to the family members and guests that are here, we 
welcome you as well.
    Senator Barrasso. Well, thank you, Senator Carper.
    First, let me note that the EPW Committee is the only 
committee in Congress to have held an oversight hearing on the 
EPA this year. That hearing took place on January 30th. 
Administrator Pruitt testified before us for nearly 2 and a 
half hours. Since then the Administrator has testified before 
three additional committees, for an additional 8 hours on 
Capitol Hill. I have consistently said that I plan to call 
Administrator Pruitt to testify for a second time this year.
    The EPA's Inspector General is in the middle of conducting 
a number of reviews related to the Office of the Administrator, 
and I understand that the Inspector General will have completed 
several reviews later this summer. For that reason, I have 
asked Administrator Pruitt to testify before us in August, and 
we are working on the final date so that we can have that as a 
substantive hearing, because we will actually have information 
from the Inspector General before the Administrator appears.
    Senator Carper. Mr. Chairman, can I say again I am 
delighted--not delighted, I am pleased that we are going to 
have a hearing, that he is going to be before us, but I would 
just suggest again if Gina McCarthy or Lisa Jackson, the two 
previous Administrators of EPA, had been accused of even a 
fraction of what Mr. Pruitt has been accused of, they would be 
sitting at this desk week after week after week explaining what 
is going on at EPA and why are they doing those things, and 
that is why we are anxious to get this hearing scheduled as 
soon as possible.
    Thank you.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Mr. Chairman, I plan, it's significant 
enough that I am going to skip the vote. So, if you all want to 
go ahead and go vote, I will hold it open until you get back. I 
will have a chance to make a few statements myself, if that is 
permissible with you.
    Senator Barrasso. That most certainly is, so we can 
continue with the hearing.
    Just to tell the two people who testify today, the 
nominees, that we are in the middle of several roll call votes, 
so people will be coming and going, and Senator Inhofe has 
graciously agreed to stay here and continue the hearing so we 
don't have to take a disruption of activities here.
    So, I am delighted that you are both here today, and I want 
to welcome the two nominees to the Committee, Chad McIntosh, 
nominee to be Assistant Administrator for the EPA's Office of 
International and Tribal Affairs, and Peter Wright, nominee to 
be Assistant Administrator for the EPA's Office of Land and 
Emergency Management.
    I want to remind each of you that your full written 
testimony will be made part of the record. I look forward to 
your testifying.
    We will first hear from Mr. McIntosh and invite you to 
introduce your family.
    Please proceed.

STATEMENT OF WILLIAM CHARLES MCINTOSH, NOMINEE TO BE ASSISTANT 
   ADMINISTRATOR FOR THE OFFICE OF INTERNATIONAL AND TRIBAL 
                            AFFAIRS

    Mr. McIntosh. Thank you, Senator Barrasso. I would like to 
introduce my son, Scott, and his wife, Katie, who are here 
today. I have a number of other family members that are 
watching TV.
    Senator Barrasso. Please, proceed.
    Mr. McIntosh. Good morning, Chairman Barrasso, Ranking 
Member Carper, and esteemed members of the Committee. I count 
it a high honor to appear before you as you carry out your 
responsibility to provide advice--and hopefully consent--for my 
nomination for the position of Assistant Administrator for the 
U.S. EPA Office of International and Tribal Affairs.
    I am humbled and thrilled to be nominated by President 
Trump. Thank you, Mr. President, for your confidence in me. If 
confirmed, I promise to faithfully carry out my duties.
    Thank you, Administrator Pruitt, for trusting in me and for 
supporting this nomination.
    Forty years ago the Michigan Department of Natural 
Resources hired me to review permit applications submitted 
under the Clean Air Act. I worked in the Air, Hazardous Waste, 
and Radioactive Waste programs before having the opportunity to 
work as Governor Engler's environmental and natural resources 
policy advisor. I shepherded the Clean Air Act amendments of 
1990 through the State legislature, enjoying broad bipartisan 
support; reformed the State remediation laws; codified the 
environmental and natural resources statutes; and improved the 
State's wastewater infrastructure.
    I spent 19 proud years with the Ford Motor Company, where 
compliance with environmental regulations is the minimum and 
improving the environment is expected.
    To the Office of International and Tribal Affairs, I cannot 
wait to start working with you, if confirmed. You embody the 
mission of the EPA to protect human health and the environment 
through your tribal mission and our work with our international 
partners.
    When I started my environmental protection career, Lake 
Erie would catch fire, portions of the regulated community were 
recalcitrant in their compliance, and States and Tribes were 
just learning how to implement their environmental 
responsibilities.
    The States and Tribes have become so much more capable over 
the last 40 years. Cooperative federalism has become essential. 
In many cases there is no longer a need for a Federal 
redundancy in regulation; we can work with the States and 
Tribes to faithfully implement the laws and fully protect 
public health and the environment by providing oversight and 
assistance without duplicating their actions. Many companies 
fully embrace environmental compliance.
    President Trump and Administrator Pruitt have set an 
aggressive agenda that I am excited to help implement, should I 
be confirmed. Administrator Pruitt is focusing the Agency on 
the implementation of Federal laws. I look forward to helping 
ensure that the Agency's regulations and guidance faithfully 
and literally implement the laws of the land.
    We have made so much progress, and the environment is so 
much cleaner over the span of my career. I am thrilled to have 
the opportunity to be part of the EPA as it assists the States 
and Tribes and provides an example to other nations of how to 
work to protect the environment, should I be confirmed.
    Again, Mr. Chairman and members of the Committee, thank you 
again for your time and the opportunity to appear before you.
    [The prepared statement of Mr. McIntosh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe [presiding]. Thank you very much, Mr. 
McIntosh.
    We are going to change the arrangement, if it is all right 
with you, Mr. Wright. What I am going to do is recognize myself 
as the Acting Chairman right now, to ask some questions, make 
some comments, and then I will miss the vote, but we will keep 
on.
    I understand the two of you have already voted, is that 
correct?
    All right, so that is what we will do.
    If you don't mind waiting, then we will recognize you when 
I conclude my remarks. Thank you very much.
    It is a very awkward situation for me because I have one 
issue. I had to get to the two of you to get a clear 
understanding, and it is one I don't have any concern as to 
where you are going to be, and that is, if we start with you, 
Mr. McIntosh.
    In northeastern Oklahoma we have a thing called Tar Creek. 
I think you are familiar with that. It could be characterized 
as the most devastating Superfund site of any time. It has 50 
million tons of mine waste and miles of underground mines. It 
is something we have been working on, working with, and working 
in cooperation with the EPA; and primarily it is the Quapaw 
Tribe. We have a number of Native American Tribes in Oklahoma. 
The Quapaws own the land where this Superfund site was, so they 
have taken it over. They are working it well, working with the 
EPA.
    One of the problems we are having, though, is that the 
Quapaw Tribe has run into a barrier called the Bureau of Indian 
Affairs that has made it very difficult for the Tribe to sell 
the chat on their lands, while other landowners can.
    This just takes a yes or no answer on this. So, if 
confirmed as Assistant Administrator, will you work with the 
Tribe and the BIA to explore ways to simplify the process for 
chat sales so that the Tribe can reenter the market and sell 
their chat, as others are doing?
    Mr. McIntosh. Yes.
    Senator Inhofe. Thank you very much.
    I would ask also that Oklahoma enter into their own 
agreement to clean up the non-tribal land, but they find that 
the EPA can be a little inflexible when it comes to the 
remediation that is being handled. For example, the EPA will 
not allow the topsoil to be replaced once contaminated soil is 
removed. This severely limits their opportunities.
    Can I get your commitment to ensure the Tribe's wishes for 
how their land is remediated is given the proper weight and 
consideration?
    Mr. McIntosh. Yes.
    Senator Inhofe. I appreciate that very much.
    Mr. Wright, you have heard this. Can I get your commitment, 
too, that the Tribe's considerations for the condition that 
they want their land to be given weight that it deserves?
    Mr. Wright. Absolutely.
    Senator Inhofe. I appreciate that very much.
    I believe that would pretty much handle that.
    I do want to respond. I think it is very inappropriate. It 
happens that the Ranking Member, Senator Carper, is a friend of 
mine. But when you folks are coming up, you have been 
recommended by Scott Pruitt, the Administrator of the EPA, who 
went through hours and hours of antagonizing questions. 
Normally you get questions for the record averaging about 25 
with each nominee going through a confirmation process. He had 
1,600 that he had to answer.
    I have to say this. I am going to take the statement that 
was made by Senator Carper. Excuse my voice this morning First 
of all, he was talking about the New York Times story. That was 
the very first thing that I heard, the accusation against Scott 
Pruitt. New York Times has never been a conservative 
publication, we all know that, and some of the things that they 
said were actually wrong. We have documented that they were 
wrong. Individuals that were mentioned in that story were 
individuals who have been unblemished, never had anything 
negative said about them. One is Bob Funk, a very wealthy 
individual who is a real free enterpriser.
    The costly trips overseas at taxpayers' expense, it is a 
lie, just an outrageous lie. They talk about Morocco and Italy. 
Scott Pruitt had to go to Morocco because that was his job. He 
had to represent, along with his counterparts from seven other 
countries, to be there because they were dealing with chapters 
of the free trade agreement that have to do with the 
environment. That was their job. He had to be there. He was 
there at Government expense, the same as his predecessor had 
been to these same meetings.
    The G7 meeting in Italy, the same thing. He had to be there 
because all seven of his counterparts had to be at this 
meeting. If he had not been there, he would have been guilty of 
derelict of his own duty.
    Tickets on sporting events. This is so outrageous. They 
talk about the University of Kentucky basketball game where he 
went with his son and about the Rose Bowl. Well, he actually 
went through the process of going to Ethics and saying I want 
to do this, I want to pay for my own tickets; will you tell me 
what to do so I am not violating anything. In both cases they 
said you just have to pay for your own tickets and disclose 
that you are there. He did that, paid for his own tickets to 
the Rose Bowl, paid for his ticket and his son's ticket to the 
Kentucky basketball game.
    You know, only in Washington can you get by with 
allegations against somebody and not giving them a chance to 
respond. This is the first response you have probably ever 
heard of this. It has been all over the papers now for a year.
    The secure phone booth. One of the first calls he got when 
he took office was from the President of the United States. The 
first question they asked, is this a secure phone. Well, 
obviously it wasn't a secure phone, so he went and asked them 
whatever was necessary to come up with a secure phone, and they 
would do it.
    The fifth thing I want to mention, while missing the vote, 
is the security costs, the fact that his security has been 
around $3 million in the first year. Now, the reason is that 
Administrator Pruitt is the first one in my memory--and I have 
been around here for 32 years--the first one who has ever had 
any type of threat on his or her life of all the Administrators 
that we have had, and he has been threatened over and over 
again. Just earlier this month, Occupy Wall Street, a liberal 
group that doesn't like him, probably funded, I would say, by 
Tom Steyer, posted his home address in Tulsa and encouraged 
their followers to take a pitchfork at him. In other words, 
gave his home address and told them to go molest his family. 
Can you believe that is happening? Have you heard it before? 
No, you haven't.
    They brought his daughter in. Somehow the accusation was 
that she only got into UVA because of Pruitt asked an old 
friend from his VA House of Delegates to write a letter of 
recommendation. That is outrageous. I know this little girl; 
she was an intern for me. She is brilliant. She is an honor 
student. Law schools were trying to recruit her to come in, and 
she actually was invited to come into law school at UVA before 
he was even in office.
    So, this is the type of outrageous lies that you hear in 
Washington, and people don't have a chance to respond to them.
    With that, Senator Rounds is presiding.
    Senator Rounds [presiding]. Thank you, Senator.
    Mr. Wright, would you like to proceed with your opening 
statement?

     STATEMENT OF PETER C. WRIGHT, NOMINEE TO BE ASSISTANT 
 ADMINISTRATOR FOR THE OFFICE OF LAND AND EMERGENCY MANAGEMENT

    Mr. Wright. Yes. Chairman Barrasso, Ranking Senator Carper, 
distinguished members of the Committee, thank you for the 
privilege of coming before you today as the nominee for the 
position of Assistant Administrator for the Office of Land and 
Emergency Management. I am honored that President Trump, 
Administrator Pruitt, and the Committee are considering me for 
this position.
    I would like to thank my wife, Nicky, who is here today; my 
daughter, Audrey, who is watching today, for their unwavering 
support of my career over many years. I would also like to 
thank my many current and former colleagues from industry, law 
firms, and the ABA Section of Environment, Energy, and 
Resources for their support and friendship.
    I am proud and grateful to have been an environmental 
lawyer during my 32 year career. For much of my career I have 
worked in the manufacturing sector in support of the hard work 
of millions of Americans committed to making products you use 
every day. I have worked to support manufacturers and other 
clients addressing and responsibly resolving the legacy of 
historic waste management practices and operations. They have 
relied on me to provide guidance on compliance with a broad 
array of regulations.
    I have also had the opportunity to work for two law firms 
and to serve a diverse set of clients.
    While I have spent my entire legal career practicing in 
Indiana, Missouri, and Michigan, I have had the opportunity to 
work on remediation, regulatory, and transactional matters in 
almost every State and in many countries around the world. I 
appreciate firsthand the importance of and the need for 
cooperative federalism between EPA regions and the State 
environmental agencies.
    I look forward to the opportunity to serve our country as 
the Assistant Administrator for the Office of Land and 
Emergency Management, to bring to bear my experience to help 
implement the recommendations of the Superfund Task Force to 
achieve the overall goal of better, faster cleanups. Not a day 
goes by when I work on Superfund and remediation matters when I 
do not think about things that could be changed and improved.
    The time and cost expended on matters ancillary to actual 
cleanup work, that provide no environmental benefit, are 
staggering. Communities and Congress have understandably been 
very frustrated and despairing that some cleanups will ever be 
completed. I look forward to applying my transactional 
background to the benefits of the Superfund reform plan that 
seek to revitalize sites whenever possible. Communities have 
rightly been disappointed when the end of a cleanup is a 
forever fenced off industrial facility that serves no economic 
purpose to the surrounding community; it is fixed, but useless.
    I look forward to working with the dedicated personnel at 
EPA, many of whom I have worked with over the course of my 
career. I have listened carefully to the headquarters and 
regional EPA personnel, as well as my own clients, to find 
pragmatic and productive solutions and advance protection of 
the environment and public health.
    I have volunteered my time, alongside many from EPA, to 
work on the RCRA corrective action project and the ABA's 
Environmental Energy and Resource Section, focused on improving 
the practice and performance of Superfund and RCRA through 
conferences, publications, and ongoing dialogue. That 
collaborative work must continue.
    In closing, Mr. Chairman, I would again like to thank the 
President, the Administrator, and this Committee for the 
opportunity to be here today. I would be humbled to join 
Administrator Pruitt and the OLEM staff in carrying out EPA's 
important mission. I respectfully request support and look 
forward to any questions that you or your colleagues may have 
for me.
    [The prepared statement of Mr. Wright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso [presiding]. Well, thank you very much, 
Mr. Wright.
    I want to thank both of you for your testimony.
    Throughout this hearing and with the questions for the 
record, Committee members are going to have the opportunity to 
learn more about your commitment to our great Nation, and I 
would ask that throughout this hearing you please respond to 
the questions, not just those today, but also those for the 
record.
    There are a couple of questions that we ask of all nominees 
on behalf of the Committee, and I will start with the one of do 
you agree, if confirmed, to appear before this Committee or 
designated members of this Committee, and other appropriate 
committees of Congress, and provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities?
    Mr. McIntosh.
    Mr. McIntosh. Yes.
    Senator Barrasso. Mr. Wright.
    Mr. Wright. Yes.
    Senator Barrasso. Thank you.
    Do you agree to ensure that testimony, briefings, 
documents, and electronic and other forms of information are 
provided to this Committee and its staff, and other appropriate 
committees, in a timely manner?
    Mr. McIntosh.
    Mr. McIntosh. Yes.
    Senator Barrasso. Thank you.
    Mr. Wright.
    Mr. Wright. Yes.
    Senator Barrasso. Thank you.
    Now, to both of you, do you know of any matters which you 
may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Mr. McIntosh.
    Mr. McIntosh. No.
    Senator Barrasso. Mr. Wright.
    Mr. Wright. No.
    Senator Barrasso. Thank you very much.
    With that, I am going to ask a few questions and then turn 
to colleagues to do the same.
    Mr. Wright, if confirmed, you will oversee the EPA's 
Superfund program and the Brownfields program. In its 2017 
annual report, the parent of your current employer, Dow 
Chemical, identified itself as a responsible party at 193 
existing and proposed Superfund sites, and I understand that 
roughly 170 of those sites are on the National Priority List.
    How do you plan to address the issues of recusal?
    Mr. Wright. As has already been identified briefly, and I 
will expand upon it, I have worked with the career ethics 
officials at the EPA with respect to drafting and signing a 
memorandum that makes clear that I will be recused from working 
on the sites not only that are the Dow Chemical sites, but also 
those that are DuPont sites in that Dow and DuPont merged on 
September 1 of 2017, so we have identified those sites in a 
memorandum which, if confirmed and I join the Agency, I will 
have to reassign.
    We have also put in place in that memorandum a process for 
screening matters that might come before me with the highest 
level career official and the political deputy, so that they 
would screen matters to prevent me from working on any sites 
from which I would be recused.
    Senator Barrasso. Thank you very much, Mr. Wright.
    Mr. McIntosh, if confirmed, one of your principal 
responsibilities will be to protect the public health and 
environment in Indian country. Indian Tribes in neighboring 
States often have different views on how to protect the public 
health and the environment. These issues can be very 
contentious. You experienced this firsthand during your tenure 
in the Michigan State government.
    How can EPA better engage Indian Tribes and States as it 
seeks to improve public health and the environment in Indian 
country?
    Mr. McIntosh. In my time with the Michigan Department of 
Environmental Quality, we did work with our 12 recognized 
Tribes. I am not with the EPA at the moment, but I look forward 
to actually working with all the EPA entities and the Tribes as 
we carry out our environmental and public health protection 
duties. My experience will allow me to help with the Tribes 
that have their own organizations, their own environmental 
organizations to ensure that they have adequate resources, as 
well as carrying out our Trust responsibilities on the tribal 
lands that the EPA actually have to carry that out, and I have 
plenty of experience in terms of working with multiple States 
and agencies and countries to work through those kinds of 
issues.
    Senator Barrasso. Because you served as a State regulator. 
You also worked for a couple of decades as an environmental 
compliance manager for one of the world's largest automobile 
manufacturers.
    Mr. Wright, you have led an impressive career that includes 
three decades of environmental law experience.
    I would like to ask each of you this based on your 
backgrounds, what do you consider to be maybe your greatest 
professional accomplishment as it relates to protecting the 
environment?
    Mr. Wright.
    Then I will go to you, Mr. McIntosh.
    Mr. Wright. Well, the thing that I think I am most well 
known for is leading the legal team that has worked to resolve 
very longstanding controversies with respect to cleanups in the 
hometown of the Dow Chemical Company, in Midland, Michigan. We 
have been able to enter into 14 separate orders with EPA Region 
5 with respect to the Tittabawassee River and floodplain. Work 
continues, work is going on I am sure today, if it is not 
raining, and will continue through 2020 on the Tittabawassee 
River, and then, after, the Saginaw River and Bay, but we were 
able, again, to put in place a process that is moving that 
process along.
    The controversy in the city of Midland with respect to 
dioxin contamination was an issue going back into the early 
1980s. We were working with the State, with support from EPA, 
and the community to come up with a cleanup approach that was 
able to allow us to complete a cleanup, one sample, nearly 
1,400 homes, cleanup about 10 percent of those homes and 
resolve that issue years ahead of schedule and really very much 
completely.
    Senator Barrasso. Thank you.
    Mr. McIntosh, you talk a little bit about your greatest 
professional accomplishment as it relates to protecting the 
environment.
    Mr. McIntosh. There are a number. I will mention just a 
couple. When I first went to work for Governor Engler, I got to 
shepherd the Clean Air Act amendments of 1990, which I know 
ages me considerably. That was a fantastic opportunity where we 
worked in a very bipartisan way with the State legislature to 
totally implement the Clean Air Act, and that was rewarding, 
and it got us out in front of all the regulatory requirements 
and such of the statute.
    Probably one of the more difficult things I was involved in 
was negotiating the Twelve Towns Drain combined sewer overflow 
system improvements for southeast Michigan by actively 
negotiating with 14 municipalities who were struggling with the 
resources necessary to improve their combined sewer overflow 
structure. We were able to leverage Federal funding to the 
State Revolving Fund to provide seeds to help the 
municipalities, as well as working with the agencies who were 
involved in enforcing in that area. But to have the 14 
communities come together and finally put the project in place 
that significantly kept sewage from flowing into our waters of 
the State, I was most proud of that.
    Senator Barrasso. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. McIntosh, once again, it is good to see you again. I 
appreciated the meeting that we had in my office in April. At 
that meeting we had an opportunity to discuss your thoughts 
about tribal relations, and I know that you have indicated that 
you had a number of Tribes that you worked with in your home 
State.
    The Chairman has already indicated an interest in finding 
out from you about your thoughts about how to work with tribal 
leaders.
    I just want to talk about real consultation and what that 
means. I think in a lot of cases we have this tendency at the 
Federal level--and even at the State level--when there is a 
request for a consultation, it seems to be it is more along the 
lines of we dot our Is, we cross our Ts. But I think the tribal 
leadership across this country expects more in consultation. 
Can you share a little bit about your thoughts about what the 
term consultation means when it talks about communications with 
our tribal leaders?
    Mr. McIntosh. For me, consultation would be--I think with 
my background and experience with the States, counties, with 
Ford, with the other countries around the world, as well as the 
Tribes in the State of Michigan--consultation would be actually 
a direct dialogue where I can provide specific help to the 
Tribes where they need it. If it is a resource issue, or if 
they have a technology issue, you know, I would be able to 
help. So, to provide direct assistance, as well as help them 
for the tribal lands where the EPA is actually implementing the 
Federal regulations, work with them directly so that they are 
directly involved in that.
    Senator Rounds. Does it include asking their advice about 
what they think is right for their lands?
    Mr. McIntosh. Absolutely. It is their sovereign lands. We 
have a Federal Trust responsibility, but it is definitely their 
Federal lands, and we would be working with them as a 
sovereign.
    Senator Rounds. Does it include negotiations with them on 
the appropriate way to proceed?
    Mr. McIntosh. Negotiations under the law, yes.
    Senator Rounds. So, it is not simply a matter of having a 
public meeting where you take some input from a group on a 
particular geographic area and then simply say we have done our 
consultation, we have had a public meeting, and now we can make 
a decision.
    I want to flush this out a little bit because I think in a 
lot of cases that is the way our tribal leaders feel, is that 
we give them an opportunity to have a public meeting, but we 
don't have a give and take. Can you flesh this out a little bit 
for me?
    Mr. McIntosh. Sure. Although public meetings are very 
important, when I was a hazardous waste permit engineer, we 
would have a large public meeting with a gymnasium full of 
people that were very upset with what was happening, but I 
personally would seek out the interest groups that were 
communicating with the department, and I would go meet with 
them personally prior to the public meeting, first of all, to 
explain the law under which we were taking these actions and to 
help them understand where we were going, and to take their 
input in terms of how they wanted the facility to proceed.
    Senator Rounds. We have nine Tribes in South Dakota, and I 
think that is the one thing that I hear more than anything 
else, is the lack of consultation, a true consultative process, 
which is more than simply dotting Is and crossing Ts, it is a 
matter of actually having a dialogue with those leaders.
    I would just simply ask that you really consider that in 
the discussions that you have, that each of these 
organizations, as a sovereign entity, has built in to the 
treaty obligations, in many cases, that expectation of true 
dialogue.
    Mr. McIntosh. I will, and I look forward to those 
consultations.
    Senator Rounds. Thank you, sir.
    Mr. Wright, I am just curious. I have been pleased to see 
that the current leadership of the EPA has shifted their focus 
on the core environmental responsibilities to those areas that 
I think were originally intended by Congress. This includes 
overseeing the Superfund program. I believe that every member 
of this Committee would like to see greater remediation of our 
Nation's Superfund sites. You have talked about that.
    What do you believe to be the greatest barriers to 
remediating these sites today?
    Mr. Wright. Well, I think the greatest barriers to 
remediating sites today are a number of practices that have 
built up over time, you know, that are not as productive as 
they can be with respect to moving sites forward. It can run 
the gamut, depending on the particular site, what the 
impediment is, but overall, I think the real key to really 
moving forward is encouraging action and moving forward. The 
experience that I have had, for example, with respect to the 
Tittabawassee River is similar to, I think, the large sites 
that are moving forward, is where often smaller chunks are 
taken, you know, action is taken on pieces of a problem and not 
make it the battle over the entire project, and to get going 
with respect to that. I think that is really one of the keys.
    Senator Rounds. Let me just say I serve as Chairman of the 
Senate Environment and Public Works Subcommittee on Superfund. 
In this capacity, I intend to hold additional hearings 
examining the strengths and the weaknesses of the Superfund 
program.
    Should you be confirmed, can you commit to appearing before 
our Subcommittee?
    Mr. Wright. I do.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, unfortunately, there have been some instances 
where I have been made promises by the EPA, even in writing, 
only to have them reneged upon. I am told one thing and then 
find out in a press report that the EPA is doing exactly what 
they told me they wouldn't do. So, when issues under your 
purviews arise and I engage with your offices, can I count on 
you to keep your word?
    Mr. McIntosh.
    Mr. McIntosh. Should I be confirmed, I look forward to 
working with you directly and giving you timely responses to 
anything you ask of me.
    Senator Ernst. And Mr. Wright.
    Mr. Wright. If confirmed, I will do so.
    Senator Ernst. OK. And please, gentlemen, if you have no 
intent of upholding a commitment or carrying out a policy, I 
would rather know that up front. I value integrity.
    The EPA has also been under intense scrutiny due to some of 
the questionable decisions that have been made at the agency, 
and a number of those have been detailed today, but I do look 
forward to hearing from the oversight committee. Excessive and 
unnecessary spending, unacceptable uses of Agency resources. 
The list goes on and on.
    It is important to understand what the courses of action 
are. If you do witness additional improprieties, are you 
familiar with EPA's policies governing the reporting of such 
complaints?
    Mr. McIntosh.
    Mr. McIntosh. If confirmed, I will become very familiar 
with all those policies and rules, and commit to following 
them, as well as the advice from our Agency ethics officials.
    Senator Ernst. I appreciate that.
    Mr. Wright.
    Mr. Wright. Senator, yes, if confirmed, I intend to come up 
to speed on those policies and will follow them and follow the 
guidance of career ethics officials.
    Senator Ernst. I appreciate that very much.
    I will yield back my time and look forward, again, to 
additional discussions about the Agency and some of those 
really unacceptable, what I consider unacceptable uses of 
taxpayer dollars. Thank you very much.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Carper.
    Senator Carper. Before I ask a series of questions that 
relate to the offices to which you have been nominated, I just 
wanted to return to the issue of the Administrator of EPA just 
to say, Mr. Chairman, colleagues, if I had been accused of any 
of the things that he has been accused of, and there is like a 
whole plethora of them, I would be pleading for a chance to sit 
at this table and defend myself. That is what I would ask. Give 
me a chance to publicly rebuke these, rebut. That is what I 
would want. For the life of me, for someone who has been 
accused day after day, week after week, now month after month 
of these misdeeds, and not to be seeking the opportunity to be 
heard before the committee of jurisdiction to clear his name, I 
don't get it. I just don't get it.
    But let me ask a question of both of you, if I could. If 
the Administrator, Mr. Pruitt, asked EPA staff--apparently he 
is accused, repeatedly, of asking his EPA staff to help, among 
other things, help his wife find a job by approaching political 
supporters, including those with businesses before the EPA, to 
ask them to put her on their payroll, let me just ask, using 
your official role for personal gain, including to enrich your 
family, as far as I can tell, is against the law, do each of 
you commit not to assist this Administrator or any 
Administrator in an effort to enrich him or his family, even if 
he or she directs you to do so? Would you make that commitment?
    Mr. Wright.
    Mr. Wright. Senator, I have no expectation that would 
happen, but I wouldn't agree to it.
    Senator Carper. Mr. McIntosh, same question. Would you make 
that commitment?
    Mr. McIntosh. Again, I----
    Senator Carper. If you are asked.
    Mr. McIntosh. I have not been part of the Agency up to this 
point. If confirmed, I will conduct my official duties in full 
compliance with all the rules and regulations with the agencies 
and work very closely with the ethics officials on all issues.
    Senator Carper. OK.
    A follow up question. Mr. Pruitt apparently also asked his 
EPA staff to help him search for real estate, buy a used 
mattress from a Trump Hotel, get his daughter a White House 
internship, pick up his dry cleaning, and buy his favorite 
fancy moisturizer. Federal law prohibits Federal employees, 
public employees, from asking or directing subordinates to 
provide them with personal gifts or services.
    Do each of you commit to refuse any similar request from 
Administrator Pruitt or some future Administrator might make of 
you and your staff along those lines?
    Mr. Wright. Senator, I have no expectation of getting such 
a request, but again, I would follow all of the guidelines 
informed by the career ethics officials.
    Senator Carper. Thank you.
    Mr. McIntosh, same question.
    Mr. McIntosh. I again commit I will follow all the rules 
and regulations of the Agency, as well as following and 
committing to following the guidance of our ethics officials.
    Senator Carper. All right.
    Mr. Wright, this question is just for you. In your recusal 
statement you said you would abide by ethics regulations and 
the Trump ethics pledge. You also said that you would not 
participate in working on any DowDuPont Superfund site for 2 
years after you are confirmed. Do you intend to seek any waiver 
that would allow you to work on those sites in the 2 year 
period following your confirmation, if you are confirmed?
    Mr. Wright. I have no intention to seek any waivers.
    Senator Carper. All right, thank you.
    A question again for you, Mr. Wright. In January this year 
I believe Barry Breen, who was the Acting Assistant 
Administrator for the Office of Land and Emergency Management, 
told the House Energy and Commerce Committee that when it comes 
to cleaning up Superfund sites, he said, ``We have to respond 
to climate change, and that is just part of our mission, so we 
need to design remedies that account for that.'' That is what 
he said.
    Both Administrator Pruitt and the President are infamous 
skeptics of climate change science and dismiss the central role 
scientists say that human activity is playing in changing our 
climate.
    My question of you, Mr. Wright, would be who do you agree 
with, Mr. Breen and the worldwide scientific community or Mr. 
Pruitt and our President.
    If you were confirmed, will you incorporate perspective 
climate change impacts into the remedy selections and designs 
for Superfund sites? Let me say that last question. This is one 
that I really want to ask. If you are confirmed, will you 
incorporate perspective climate change impacts into the remedy 
selection and design for Superfund sites?
    Mr. Wright. I will and agree it is essential.
    Senator Carper. Thank you.
    Mr. McIntosh, one of the main functions of the Office of 
International and Tribal Affairs is working with Tribal Nations 
across our country. Would you please give us an example of some 
of the work that you have done with Native American 
communities, please?
    Mr. McIntosh. The Michigan Department of Environmental 
Quality that I was Deputy Director of worked extensively with 
our 12 recognized Tribes on a number of issues. I have not 
worked specifically on one of the issues other than managing 
the staff working on those.
    Senator Carper. All right, thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Booker.
    Senator Booker. Mr. Chairman, thank you very much.
    Gentlemen, thank you very much for being here. I do want to 
note that you all have extraordinary haircuts as well.
    [Laughter.]
    Senator Booker. Mr. Wright, I have some questions for you, 
and forgive me, my time is limited, so I am going to do a 
little bit of a rapid fire. But just to set up the question, 
you are aware, I am sure, that Administrator Pruitt is 
attempting to roll back the 2017 Clean Air Act's Risk 
Management Program update, otherwise known as the Chemical 
Disaster Rule. The 2017 update established a set of public 
health and safety protections that would protect environmental 
justice issues, facility workers, community first responders 
from accidents at a wide range of industrial chemical 
facilities.
    On May 17th the Administrator proposed a new rule that 
would roll back all protections afforded by those 2017 
standards. The proposal comes after a recent report, which was 
very troubling to my team, that outlined more than 40 chemical 
disasters that have occurred since Administrator Pruitt first 
delayed this rule last summer. And the EPA's own data shows 
that from 2014 to 2016 there have been at least 137 reported 
accidents each year.
    So just my rapid fire questions, if you would, sir. Yes or 
no, do you support the Administrator's proposal to weaken the 
chemical safety standards?
    Mr. Wright. Senator, I am not deeply familiar with the 
current rule; it has been some time since I have been asked. I 
am familiar with the program, but not the current rule.
    Senator Booker. OK, I would love to ask that, but as a 
question for the record and see if you would answer that after 
the hearing.
    Yes or no, second, do you believe that facilities should be 
required to assess whether or not they can move toward using 
safer technologies to limit their potential for catastrophic 
chemical incidents?
    Mr. Wright. Again, Senator, I am generally familiar with 
the rule----
    Senator Booker. But that just seems----
    Mr. Wright [continuing]. But I am not as familiar with the 
particular----
    Senator Booker. But that just seems like common sense. Do 
you think that these facilities should have to assess whether 
or not they can move toward using safer technologies that could 
actually protect human lives and avoid these hundreds of 
accidents that we seem to be having?
    Mr. Wright. Well, I believe chemical safety is paramount, 
but if confirmed, I would become more up to speed with the 
particular details of that proposal.
    Senator Booker. OK. So then, in general, do you believe 
facilities that have a chemical disaster or a near miss, as it 
is termed, that they should be required to investigate what 
went wrong so that they can avoid similar impacts in the 
future? Doesn't that seem like a common sense thing that we 
should require companies to do?
    Mr. Wright. Well, Senator, again, I am not particularly 
familiar----
    Senator Booker. I am just asking for your common sense.
    Mr. Wright. There is a common sense element to it, and it 
is a practice that I am familiar with for the particular client 
that I work for today.
    Senator Booker. So, you think it is just common sense, 
something that makes sense that we should do.
    Mr. Wright. It may be commonsensical, but again, I don't 
appreciate exactly how it is formulated in the proposed rule or 
in the previous rule.
    Senator Booker. So, if you lived in a community, if you 
were just a neighbor now of a chemical plant, like many folks 
do in my State, and they had a near miss or a chemical 
disaster, would you want them to do an investigation so that 
they could avoid similar such near misses in the future? If you 
lived in that community, would that be something you would 
want?
    Mr. Wright. Well, again, from the perspective of being the 
Assistant Administrator, if confirmed----
    Senator Booker. I am just asking as a human being, man. 
These facilities are usually in low income communities, like 
Cancer Alley in Louisiana, where I visited with poor, low 
income African-American communities that live next to these 
plants;, people in my State, who live next to a chemical plant. 
Just for just your own human decency, if you lived near one of 
these plants, if you had children by those plants, wouldn't you 
want this done?
    Mr. Wright. Well, Senator, as I have stated, I am a very 
strong believer in chemical safety, and appropriate measures 
should be taken, and as appropriate, the Agency should enforce 
existing rules.
    Senator Booker. The EPA's proposal explicitly states that 
changes--the EPA itself is saying that they would 
disproportionately impact low income communities and 
communities of color. The Agency is moving forward with the 
rule anyway, despite it saying it would have that 
disproportionate impact on low income folks, people of color, 
and they say it is because it is going to save an estimated $88 
million per year in an industry whose overall annual revenue is 
estimated to be $100 billion.
    So, it seems like that cost-benefit logic is what is 
prevailing here. Do you believe it is OK for the EPA to make 
rules that disproportionately impact the health and safety of 
low income and minority communities because of a cost-benefit 
analysis, or should the health concerns of those communities 
prevail?
    Mr. Wright. I believe it is very important for EPA to take 
into consideration the impacts on minority communities, but 
again, I am not familiar with the details about how this rule 
does or doesn't do that.
    Senator Booker. OK, finally, if the EPA refuses to 
adequately protect these vulnerable communities from negative 
environmental impacts, again, I have been spending a lot of 
time on the road visiting communities that are affected in this 
way, do you agree with me that these communities should have 
the right to bring a private cause of action to protect 
themselves against this type of disproportionate harm?
    Mr. Wright. Senator, I would take it that that is kind of 
beyond the scope of the position for which I have been 
nominated, to generally comment on the law.
    Senator Booker. But it is important for me, someone who is 
going to advise and consent the President of the United States, 
to know what kind of person you are. Do you have an opinion on 
whether folks should be able to defend themselves in the 
judicial system from companies that are affecting their life 
and their health and safety in these communities?
    Mr. Wright. Well, again, of course, it depends on the 
particular State, but there typically are State laws that would 
provide for a cause of action, whether statutory or common law 
causes of action.
    Senator Booker. I would just like to say to the Chairman I 
would like to have these questions submitted. He says he wasn't 
prepared to answer a lot of them because he is not familiar 
with what I am talking about, so I would like to submit them as 
QFRs and hopefully get more substantive response.
    Senator Rounds [presiding]. Of course.
    Senator Booker. Thank you, sir.
    Senator Rounds. We are about at the end of the hearing 
here, but I just have one more question. I think Senator Carper 
may like to ask a question as well.
    I am just curious, Mr. Wright, with regards to the 
Superfund sites, and in particular, some of the Brownfields, 
when it comes to cleaning them up, coordination and cooperation 
with State governments and experts in their own field with any 
State government as well, can you talk a little bit about what 
you see as the role, the cooperative role between the Federal 
and State officials with regard to the cleanup and the 
determination of how to handle these Brownfields sites?
    Mr. Wright. Well, I think this goes to the heart of 
cooperative federalism, really, the agencies and government 
kind of looking at all levels to work most effectively. It is 
critical, I believe, that, if you will, the right level of 
government, the right agency is working on the right kind of a 
problem, and at the right time.
    Of course, EPA, as an environmental agency, is clearly, far 
and away, the most sophisticated and experienced, from having 
cleaned up sites across the country, and every kind of site, 
so, again, it makes the most sense for EPA to have the lead, I 
believe, with respect to the most complicated, the largest 
sites.
    But there are many sites that are much less complicated, 
much smaller, and where maybe it makes a lot more sense for a 
State agency to be the lead agency because it doesn't really 
call upon all of the resources of EPA. Of course, it makes 
sense for EPA to consult and support the State, as needed. And 
there are many cases, I believe, particularly in the 
Brownfields context, where it may ultimately make sense for 
maybe the State to be the lead agency because often the State 
is the arm of government that maybe is closest to the 
particular community and the economic needs of the State.
    So, I think it is really critical that those be well 
coordinated so that resources are used across the board most 
efficiently.
    Senator Rounds. Very good. Thank you, Mr. Wright.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Apparently at the request of political supporters, 
Administrator Pruitt has accelerated in some States Superfund 
cleanups and directed that EPA research dollars be used for pet 
projects.
    Let me just ask do each of you commit not to use your 
offices or staff to grant special favors to this 
Administrator's or any Administrator's political supporters, 
even if he or she directs you to do so?
    Mr. Wright. I don't expect that I will be asked that, but I 
would not deviate from the practices and the policies of the 
office with respect to----
    Senator Carper. To granting special favors?
    Mr. Wright. Yes.
    Senator Carper. Even if asked to do so?
    Mr. Wright. Again, I would follow the policies, practices 
of the office.
    Senator Carper. You might want to be careful with that. 
Might want to be careful with that.
    Same question, Mr. McIntosh.
    Mr. McIntosh. And I will follow all the advice of our 
ethics officials at the EPA, as well as follow all the rules 
and regulations as I carry out my official duties.
    Senator Carper. I would just urge you to keep in mind we 
have a prayer breakfast that meets every Wednesday morning, and 
usually I don't get to come because I go back and forth to 
Delaware every night, but I came today. They asked me to be 
their speaker, which is quite an honor. The fellow who was nice 
enough to introduce me at the breakfast was my former fellow 
Governor here, and one of the things I sometimes talk about in 
gatherings like that are core values, and just kind of guide me 
in what I do with my life. I made every mistake in the book in 
my life, and you have probably made a few mistakes as well. But 
I always ask myself what is the right thing to do; not what is 
easy and expedient, but what is the right thing to do.
    I would urge you, if you get confirmed for these positions, 
that is a hugely important question to ask every day, what is 
the right thing to do. Not what is expedient, not what is easy; 
what is right.
    Second, Golden Rule, treat other people the way you want to 
be treated. That is maybe the most important rule of all. I 
would urge you to keep that close to you.
    Now, I am going to ask the same question again. Do each of 
you commit not to use your offices or staff to grant special 
favors to an Administrator's political supporters, even if he 
or she directs you to do so? That is my question.
    Mr. Wright.
    Mr. Wright. Senator, again, I don't expect to ever be asked 
that, and I would follow any guidance from the EPA's----
    Senator Carper. If you were asked by an Administrator to 
grant special favors to an Administrator's friends or 
supporters, even if you think it is not the right thing to do, 
would you do that?
    Mr. Wright. Again, Senator, I have no expectation that I 
will be asked that----
    Senator Carper. I am very disappointed in that answer, very 
disappointed.
    Mr. McIntosh.
    Mr. McIntosh. Senator, I appreciate and I share many of the 
core values you just----
    Senator Carper. I am not surprised.
    Mr. McIntosh. Again, I will treat everybody I work with, I 
am no better than them; they are no better than me. I expect 
the Golden Rule works pretty well in this situation. But I will 
be also following all the rules and regulations that are before 
me as I carry out my official duties and work closely with our 
ethics officials, and commit to doing that.
    Senator Carper. All right.
    Mr. Wright, a question on chemical facilities and climate 
change, if I could. Flooding associated with Hurricane Harvey 
last year caused the Arkema Chemical facilities in Texas to 
lose electricity, which led to several chemical fires there 
because there was no power to keep the chemicals cool. The 
Chemical Safety and Hazard Investigation Board recently 
released its report on this incident and found that flooding 
from Hurricane Harvey near the facility exceeded the 500 year 
flood levels and said that since 1994 the area near this 
facility had experienced three flooding experiences with flood 
levels that were greater than 100 year flood levels. This 
report recommended that chemical facilities take steps to 
assess and mitigate risk from extreme weather events like this.
    Mr. Wright, if you are confirmed, you will oversee the 
EPA's Office of Emergency Management, which is charged with 
providing information about ways to help industry, government, 
and the public ``prevent, prepare for, and respond to 
emergencies.'' Do you agree that facilities that store 
chemicals should incorporate measures to prevent and respond to 
emergencies caused by the increased intensity and frequency of 
extreme weather events that we can expect as a result of 
climate change? If so, if you are confirmed, will you work to 
ensure that facilities like the Arkema facility build 
protections into their emergency response and other plans?
    Mr. Wright. Yes.
    Senator Carper. Thank you.
    Mr. Wright. And I think that we need to take into account 
the learnings from any incident in planning for the future.
    Senator Carper. All right.
    As managing counsel for Dow and now DowDuPont, you were 
involved in any number of site cleanups. In your experience, 
did the pace of work at any Dow site accelerate after a cut to 
either the funds or personnel that were needed to do the work? 
Let me say that again. As managing counsel for Dow and now 
DowDuPont, you have been involved in numerous site cleanups. In 
your experience, did the pace of work at any Dow site 
accelerate after a cut in either the funds or personnel that 
were needed to do the work?
    Mr. Wright. Senator, I can't recall any case where the 
funding was cut. In all cases, the company, that I can think 
of, met its commitments.
    Senator Carper. All right.
    Last, a question, if I can, for Mr. McIntosh. The office 
for which you have been nominated supports the government to 
government relationship between the EPA and tribal governments. 
Can you explain for our Committee what you understand is the 
Federal Government's responsibility toward Native Americans and 
tribal communities, which would be under your purview if you 
are the leader of this entity?
    Mr. McIntosh. My experience and training is going to allow 
me to provide very strong support to the Tribes and become an 
advocate for their issues. Two things. Some Tribes have their 
own agencies, and with my experience with State government and 
with Ford and internationally, I will be able to help those 
Tribes ensure that their agencies are adequately resourced, as 
well as having the technical wherewithal to carry out their 
environmental responsibilities or their lands. And for the 
tribal lands that actually don't have a tribal agency, among my 
experience, I have managed a large governmental agency; I will 
be able to provide good coordination with the EPA and the 
States as they carry out the environmental implementation of 
the environmental laws on the tribal lands without their 
agencies.
    Senator Carper. All right, thanks.
    Mr. Chairman, could I make two unanimous consent requests, 
please?
    Senator Barrasso [presiding]. Without objection.
    Senator Carper. One of them is I would like to ask 
unanimous consent to submit for the record several reports 
about the Administrator's alleged unethical behavior over his 
tenure as the EPA Administrator. I would also like to submit a 
copy of a letter opposing Mr. Wright's nomination from a number 
of environmental organizations.
    Senator Barrasso. Without objection.
    Senator Carper. Thank you.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you very much.
    Welcome to both of you. Given the way things are going at 
EPA right now, I want to ask you each, first, if you are to be 
confirmed, what do you think the proper relationship should be 
between regulated entities and their regulator in matters where 
the public health, safety, and welfare is involved?
    Mr. McIntosh.
    Mr. McIntosh. Having been on both sides over the last 40 
years of both being regulated and being a regulator, really, 
the relationship is governed by the rule of law. Companies, and 
in general, the agencies are all committed to protecting the 
public health and the environment, and the agencies are 
committed to implementing the law and the companies are 
committed to complying with the law.
    Senator Whitehouse. Under what circumstances should the 
companies be able to direct the regulators' activities or 
conclusions?
    Mr. McIntosh. Companies are usually always able to talk to 
the agencies about their issues, but the rule of law will be 
the thing that trumps everything, and at some point the 
companies will have to comply with the rule of law.
    Senator Whitehouse. Mr. Wright, same two questions, proper 
relationship and should the regulated entity be able to direct 
the regulator.
    Mr. Wright. OK, so the relationship is governed by the 
rules, regulations, policies, and procedures of the particular 
program at issue as between the parties. With respect to the 
second question, again, it depends on the particular program, 
the particular context in which those discussions might take 
place, whether it is a consultation, whether it is negotiations 
over the terms of a consent order. Again, I think it depends on 
the particular context.
    Senator Whitehouse. I would like to ask each of you to say 
something about the concept of regulatory capture.
    Are you familiar with the concept, Mr. McIntosh?
    Mr. McIntosh. I am not familiar with that term.
    Senator Whitehouse. Well, you are probably going to be.
    Mr. Wright.
    Mr. Wright. I am also not familiar with that term.
    Senator Whitehouse. OK.
    So, assume that you are in office. What do you think is 
appropriate regarding having your professional staff run 
personal errands for you, like lotion producing or used hotel 
mattress seeking?
    Mr. McIntosh.
    Mr. McIntosh. Again, I am not part of the Agency. Should I 
be confirmed, and I hope I am confirmed, I will follow and be 
committed to following all the guidance of our ethics officials 
and all the rules and regulations that govern us carrying out 
our official duties.
    Senator Whitehouse. Will you ask your official employees to 
run personal errands for you?
    Mr. McIntosh. I will follow all the ethics rules and rules 
and regulations of the agency.
    Senator Whitehouse. Huh. I would have thought that would 
have been an easier question to answer.
    You, Mr. Wright.
    Mr. Wright. Senator, I am also not at the Agency now, so I 
am not fully familiar with all of the policies and procedures 
that apply, but I also would follow all of the guidance from 
ethics officials about appropriate assignments and 
responsibilities.
    Senator Whitehouse. Can you assure us that you wouldn't ask 
official staff to run personal errands for you?
    Mr. Wright. I have no intention to do so.
    Senator Whitehouse. How about housing? Will you accept 
housing here in Washington paid for by lobbyists or regulated 
interests, or subsidized by lobbyists or regulated interests?
    Mr. McIntosh.
    Mr. McIntosh. No.
    Senator Whitehouse. Mr. Wright.
    Mr. Wright. I have no need to.
    Senator Whitehouse. With respect to travel, are you willing 
to fly regular coach or will you demand first class travel?
    Mr. McIntosh.
    Mr. McIntosh. I generally fly coach. I am not familiar with 
the travel regulations with the Federal Government; I am with 
Ford and the State government, but I will commit to following 
the regulations.
    Senator Whitehouse. Mr. Wright.
    Mr. Wright. Senator, I also am not familiar with the travel 
regulations. Coach is fine, but I don't know if there are other 
provisions for different circumstances.
    Senator Carper. Can I just interrupt for a second?
    I will just observe that sometimes the train works, too, 
for what it is worth.
    Senator Whitehouse. Will you give your professional staff a 
list of travel destinations that you would like to visit and 
tell them to find something for you to do there so that you can 
go visit your desired travel destinations?
    Mr. McIntosh. If confirmed, my understanding is that I will 
be required to set up official visits throughout the world, and 
again, I will follow all the regulations of the Agency and the 
Government, as well as the ethics officials' guidance.
    Senator Whitehouse. But you will be doing that based on 
official needs, not your desire to go visit places.
    Mr. McIntosh. Yes. My job will be to plan official visits.
    Senator Whitehouse. And you won't be making pretext visits 
to places you simply want to go see at taxpayer expense.
    Mr. McIntosh. No.
    Senator Whitehouse. Mr. Wright.
    Mr. Wright. My answer to the question is no.
    Senator Whitehouse. Thank you.
    My time has expired, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    On November 3rd, the Environmental Protection Agency and 12 
other Federal agencies released the Fourth National Climate 
Assessment. This report decisively concludes that humans are 
the main cause of rising global temperature.
    Mr. Wright, do you agree that humans are the main cause of 
climate change?
    Mr. Wright. I agree that humans cause climate change.
    Senator Markey. Are they the main cause of climate change?
    Mr. Wright. I am not detailedly familiar with the science 
to put the relative weight, but I believe they are a cause.
    Senator Markey. A cause, right, but the main cause is what 
the conclusion that was reached by 12 Federal agencies, 
including the EPA. You don't agree with that finding?
    Mr. Wright. I am not familiar in any detail with that 
finding. I don't disagree with it.
    Senator Markey. OK.
    Well, Mr. McIntosh, do you agree that humans are the main 
cause of climate change?
    Mr. McIntosh. I am not familiar with that particular 
report. I understand humans are a contributing factor to 
climate change, but I can't say whether or not they are the 
main cause.
    Senator Markey. Right. Neither of you know whether or not 
climate change is caused mainly by human activity, which is an 
interesting position to be able to take at this late date in 
the discussion over the issue.
    And here is the good news. Because your previous employers 
would actually disagree. Ford, for whom Mr. McIntosh, and Dow, 
for whom Mr. Wright, have both said that climate strategies 
that work to cut down on greenhouse gas emissions because of 
the threats posed by climate change. Dow even calls it the most 
urgent environmental issue that society faces today, so that is 
something that Dow reached as a conclusion at the time that you 
were there. And of course, these 12 Federal agencies have also 
reached that conclusion, and you remain unable to make a 
judgment on the subject. But given the positions that you are 
both seeking to take, I think it would be reassuring to know 
that you had reached such a conclusion.
    Mr. Wright, if confirmed, you would be in charge of our 
Superfund program. Hundreds of Superfund sites around the 
country are in flood prone areas or in areas that are at risk 
of sea level rise, putting 2 million people in danger. During 
Hurricane Harvey, huge floods triggered a toxic fire at the 
Arkema Chemical Plant. The company argued that they didn't have 
a plan for how to prevent a fire from happening because the 
level of flooding was unprecedented. But in the era of climate 
change, we need to plan for unprecedented events.
    In that same storm, flooding caused a leak in the San 
Jacinto waste pits, a dangerous Superfund site. Testing found 
levels of dioxin nearby that were more than 2,000 times higher 
than the EPA's recommended cleanup level.
    The EPA's own Climate Change Adaptation Plan, issued in 
2014, raised the alarm of how climate impacts could result in 
the release of toxic chemicals from hazardous waste Superfund 
sites, calling it a ``key vulnerability.''
    In response to a question from Senator Carper earlier, you 
agreed that taking climate impacts into account for Superfund 
sites was essential. Unfortunately, Scott Pruitt does not seem 
to agree that we should be preparing for the impacts of climate 
change. Administrator Pruitt assembled a Superfund task force 
which was headed by his personal friend, a banker with no 
environmental experience, and asked it to come up with 
recommendations on how to improve the Superfund remediation 
process. That report made zero mentions of climate change or 
climate impacts on Superfund sites in its 34 pages.
    Mr. Wright, do you think these recommendations should have 
addressed the issue of climate impacts on Superfund sites?
    Mr. Wright. Senator, I am not familiar with all the details 
of how the task force was put together, but it seems to me very 
plausible that it could have assumed that that climate change 
guidance that you referenced was existing and would be 
considered part of the way in which EPA would continue to 
address the sites.
    Senator Markey. So you think that it has now become a self-
evident truth that you don't even have to mention, just assume 
to be a risk and doesn't have to be included at all? Would you 
think that perhaps the answer is that the banker friend of 
Scott Pruitt perhaps did not want it to be included because he 
himself, that is, Pruitt, is a climate denier?
    Let me just ask this. Will you ensure that climate impact 
on Superfund sites is in fact something that you put at the top 
of your list, given the fact that climate change is a serious 
problem?
    Mr. Wright. It is serious, and it should be incorporated 
into remedies, and I think, as I have previously stated, I 
think it is critical that the Agency consider the impacts that 
we saw last year from the hurricanes and plan for that 
accordingly in the future.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Markey.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank both of our nominees for their willingness to 
serve the public, also thank their families. It is not an easy 
time to serve, and the areas that you would have responsibility 
are challenging areas, so I thank you for your willingness.
    Mr. Wright, I want to talk a little bit about risk 
management plans. I say that for a couple reasons. First, in 
your current or prior life in regards to your work that you did 
at DowDuPont, there were a lot of incidences involving 
accidents and injuries in which the risk management plan comes 
into effect.
    The Administration has proposed delaying the new rules on 
this, and I want to home in on one specific area that affects 
Maryland. On September 18th of last year we had a 
chlorosulfonic acid leak in Baltimore that put thousands of 
people at risk; they were ordered to shelter in place. There 
was a concern that if they inhaled this, it could lead to very, 
very serious health risks. If it had contacted water, it could 
explode. And there was a significant concern as to the public 
health risk as it relates to this spill.
    It is my understanding currently that this type of chemical 
is not covered under the Risk Management Plan, and I would hope 
that you would help and work with us to expand the Risk 
Management Plan to cover that type of exposure, considering 
what happened in my State.
    If you could comment on that now, fine. If not, I will take 
it for the record. But I would also ask you to work and explain 
why or how you would make sure that these Risk Management Plan 
rules are effective as quickly as possible, considering the 
risk factors to our community on public health.
    Mr. Wright. Well, Senator, as I have stated earlier in this 
hearing, I think chemical safety is paramount, very important. 
At the present time, I am not deeply up to speed with the 
current set of regulatory proposals, but if confirmed, I will 
get up to speed on all of those and work on that, and would be 
glad to work with you and your staff on these issues.
    Senator Cardin. Well, I appreciate that willingness. I 
might take advantage of asking you a question for the record to 
give you a little more time to respond. I really want to know 
your commitment to public health as it relates to the Risk 
Management Plans and your response to how we can better prepare 
for the type of incident that happened in Baltimore. We were 
not as prepared as we needed to be, and let's learn from what 
has happened. People were sheltering in place, and they didn't 
know the protocols as it related to--it is right near water. If 
it would have hit water, it would have been catastrophic.
    So I appreciate the fact that you are not up to speed right 
in on these particular issues, but I would appreciate a comfort 
level that you will be committed doing everything we can for 
public safety as it relates to these Risk Management Plans.
    Mr. Wright. Senator, I will make that commitment, if 
confirmed.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Final question, Senator Carper.
    Senator Carper. Mr. McIntosh, you worked how many years at 
DowDuPont?
    Mr. McIntosh. Ford Motor Company, 19 years.
    Senator Carper. And how many years did you work at Dow?
    Mr. Wright. I worked for Dow for 19 and a half years.
    Senator Carper. OK.
    Senator Markey, did you just read a statement from Andrew 
Liveris on climate change, did he just read that in his 
question? I think he was asking you questions did you agree 
about--I think he asked one of you your views on climate 
change, the contributions that humans have to climate change, 
and neither of you were very clear, and you said, well, it is a 
factor. And then he read I think from Dow, I think he read from 
Dow. I don't know if it was Andrew Liveris who he was quoting 
or not, Chairman of Dow.
    But for Ford, these are the words of Bill Ford, and I think 
they are probably worth noting. He is still the chairman of the 
company, as you probably know. But here is what he said, 
``Climate change is having a significant effect on our planet. 
We know climate change is real and a critical threat, and we 
will continue to work with leaders around the world in support 
of ambitious, global greenhouse gas reduction targets.'' Those 
are his words, and I will just say I am Tom Carper, and I 
approve that message. Thank you.
    Would you introduce your families again? I think I was out 
of the room when you introduced your families. Would you just 
take a minute to introduce your families? Who are those people 
sitting behind you?
    Mr. McIntosh. Today, my son, Scott, and his lovely wife, 
Katie, are here. Then there are a number of other family 
watching, my lovely wife, Melanie, my other son, Andrew, and 
Jen, and then Carl and Jennie, and my grandchildren, Eda and 
Cameron are all watching, although they are probably asleep by 
now.
    Senator Carper. Please.
    Mr. Wright. So, Senator, actually, my wife is actually 
sitting behind----
    Senator Carper. This not like the weddings, where the 
bride----
    Mr. Wright. Right. It got a little confused at the last 
second--together with Dan and Jess who flew out from Midland to 
be with us, and a number of colleagues and friends I think are 
with us as well; and my daughter, Audrey, is possibly watching, 
she will watch the tape from Europe.
    Senator Carper. Can I have one more minute?
    I have a stepson who lives in Detroit, and now I have a son 
who lives there and works for General Motors for a special 
summer project. He is a graduate student in business.
    But a year ago, on Father's Day, my stepson, who lives in 
Rochester Hills, was in Paris on a family vacation with his 
four kids, and they turn on television live in their hotel 
room, I guess it was in the evening, and MSNBC was on--no, no, 
no, Meet the Press was on, and I was on, and they had this big 
screen TV in their hotel room, so there I am on television, and 
these four kids are gathered around, watching me on Meet the 
Press. This was the only time I was ever on Meet the Press, and 
they sent it to me, and we have had more fun with that picture. 
I was there for Father's Day, and we looked at it again and 
said what a special treat that was for them and for me, 
especially for me.
    All right, thanks so much.
    Senator Barrasso. Well, no further questions today.
    Members may submit written questions, follow up questions 
for the record, and they will have to do that by the close of 
business on Wednesday, June 27th, so we would ask that you 
respond by the close of business by Monday, July 9th.
    I want to thank you and congratulate you on your nomination 
again. Thank you for your testimony today, for all your hearing 
time, and the hearing is adjourned.
    [Whereupon, at 11:37 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
